Audit Report




OIG-11-078
SAFETY AND SOUNDNESS: Failed Bank Review of Rosemount
National Bank
July 8, 2011




Office of
Inspector General
Department of the Treasury
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GE NE RAL
                                                July 8, 2011


             OIG-11-078

             MEMORANDUM FOR JOHN WALSH
                            ACTING COMPTROLLER OF THE CURRENCY

             FROM:                 Jeffrey Dye /s/
                                   Director, Banking Audits

             SUBJECT:              Failed Bank Review of the Rosemount National Bank,
                                   Rosemount, Minnesota


             This memorandum presents the results of our review of the failure of Rosemount
             National Bank (Rosemount) located in Rosemount, Minnesota. Rosemount was a
             small community bank established in 1982. It offered traditional commercial and
             consumer loans and deposit products. OCC closed Rosemount and appointed the
             Federal Deposit Insurance Corporation (FDIC) as receiver on April 15, 2011. As of
             December 31, 2010, Rosemount had approximately $37.6 million in total assets
             and $36.6 million in total deposits. FDIC estimated that the loss to the Deposit
             Insurance Fund is $3.6 million.

             Because the loss to the Deposit Insurance Fund is less than $200 million, as set
             forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
             review of the failure of Rosemount that was limited to (1) ascertaining the grounds
             identified by OCC for appointing the FDIC as receiver and (2) determining whether
             any unusual circumstances exist that might warrant a more in-depth review of the
             loss. In performing our review we (1) examined documentation related to the
             appointment of FDIC as receiver, (2) reviewed OCC reports of examination for the
             five year period before the bank’s failure, and (3) interviewed OCC personnel.

             We conducted this performance audit in May 2011 in accordance with generally
             accepted government auditing standards. Those standards require that we plan and
             perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
             basis for our findings and conclusions based on our audit objectives. We believe
             that the evidence obtained provides a reasonable basis for our findings and
             conclusions based on our audit objectives.
OIG-11-078
Page 2

Causes of Failure of Rosemount National Bank
OCC appointed FDIC as receiver on the following grounds: (1) the bank
experienced a substantial dissipation of assets or earnings due to unsafe or
unsound practice, (2) the bank’s losses depleted all or substantially all of its capital
and there was no reasonable prospect for the bank to become adequately
capitalized, and (3) the bank was critically undercapitalized.

The primary cause of Rosemount’s failure was the purchase of a large quantity of
loan participations related to commercial real estate (CRE), primarily located in
Florida, Minnesota, and Arizona, without appropriate concentration limits, safe and
sound credit administration, or risk management. With declining economic
conditions, Rosemount’s board and management failed to address the increased
risks arising from the bank’s concentration of CRE loans and increasing levels of
problem loans. In addition, the board and management failed to correct unsafe or
unsound practices regarding capital levels, strategic and capital planning, problem
loan levels, credit administration, and risk management. Continuing loan-related
losses and expenses depleted Rosemount’s capital levels.

Conclusion
Based on our review of the causes of Rosemount’s failure and the grounds
identified by OCC for appointing FDIC as receiver, we determined that there were
no unusual circumstances surrounding the bank’s failure or the supervision
exercised by OCC. Accordingly, we have determined that a more in-depth review of
the bank’s failure by our office is not warranted.

We provided a draft of this memorandum to OCC management for comment. In its
response, OCC stated it agreed with our conclusion as to the causes of the failure
of Rosemount National Bank; and it had no concerns with our determination that an
in-depth review of the bank’s failure is not warranted. The response is provided as
Attachment 1. A list of the recipients of this memorandum is provided as
Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-0384.

Attachments
         OIG-11-078

       Attachment 1
Management Response
                                                   OIG-11-078

                                                 Attachment 2
                                                   Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Performance Management
   Office of Accounting and Internal Control

Office of the Comptroller of the Currency

   Acting Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
